DEPARTMENT OF HEALTH AND HUMAN SERVICES

          OFFICE OF
     INSPECTOR GENERAL




              HIPAA Readiness:
         Administrative Simplification
         for Medicare Part B Providers




                         Inspector General


                            June 2003
                          OEI-09-02-00422
                    OFFICE OF INSPECTOR GENERAL


The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended,
is to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as
the health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:


Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.


Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in the inspections reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.



Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.


Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                         EXECUTIVE                         SUMMARY

OBJECTIVE

          To determine if Medicare Part B providers expect to comply with the electronic data
          transaction standards and code sets mandated by the Health Insurance Portability and
          Accountability Act (HIPAA) by October 2003.



BACKGROUND

          The purpose of Title II of HIPAA is to improve the efficiency of the health care system by
          establishing standards to facilitate the electronic transmission of data between providers and
          payers. Electronic data interchange can eliminate the inefficiencies associated with handling
          paper documents. It reduces administrative costs and improves overall data quality for
          transactions, such as health care payments and coordination of benefits.1

          In accordance with the provisions of Title II of HIPAA, the Secretary of Health and Human
          Services has promulgated regulations mandating the use of specific standards for eight different
          types of electronic transactions and medical code sets. Covered entities that filed an extension
          must implement the standards by October 16, 2003.

          This report is based on the results of a mail survey of a stratified random sample of Medicare
          Part B providers, which includes, among others, physicians, durable medical equipment
          suppliers, and independently-practicing therapists that submitted claims to Medicare carriers
          between July 1, 2001, and June 30, 2002.




          1
           65 FR 50312 (August 17, 2000)


HIPAA Readiness: Medicare Part B Providers            i                                OEI-09-02-00422
FINDINGS

Ninety-four percent of Medicare Part B providers expect to be in compliance with
HIPAA standards by October 2003

          According to respondents, Medicare Part B providers are making significant progress in
          meeting the HIPAA deadline. Ninety-four percent of Medicare Part B providers indicated a
          moderate to high level of satisfaction that they will meet the October deadline. Approximately
          half of the providers are developing contingency plans in the event their system is not in
          compliance by October 2003.

External barriers may affect compliance

          Approximately 47 percent of the respondents who listed potential barriers to compliance
          expressed concerns that vendors and trading partners could affect their ability to meet the
          compliance deadline.



CONCLUSION

          According to respondents, Medicare Part B providers are making progress toward meeting the
          compliance target of October 16, 2003, for implementing the HIPAA electronic transaction
          standards and code sets. Ninety percent or more of the providers have developed
          implementation schedules and internal and external testing strategies, and are working with
          system vendors to implement the electronic standards. Furthermore, more than 85 percent are
          relying on their professional associations to assist them in developing implementation strategies.
          When asked about barriers to achieving compliance, respondents expressed concern that
          vendors and trading partners may affect their ability to meet the compliance date.




HIPAA Readiness: Medicare Part B Providers            ii                               OEI-09-02-00422
                            TABLE                         OF                CONTENTS
                                                                                                                                      PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          Anticipated compliance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          External barriers . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


APPENDIX A: Glossary of selected HIPAA-related terms and acronyms . . . . . . . . . . . . . . . . . . 9


APPENDIX B: Confidence intervals for key survey questions . . . . . . . . . . . . . . . . . . . . . . . . . . 10


APPENDIX C: Nonrespondent analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15





HIPAA Readiness: Medicare Part B Providers                            iii                                           OEI-09-02-00422
                                      INTRODUCTION

OBJECTIVE

          To determine if Medicare Part B providers expect to comply with the electronic data
          transaction standards and code sets mandated by the Health Insurance Portability and
          Accountability Act (HIPAA) by October 2003.



BACKGROUND

          Congress instituted significant reforms to the health care industry with the passage of HIPAA.
          Title I of HIPAA ensures the availability and portability of health care insurance coverage, while
          Title II creates a regulatory framework to improve the efficiency of the health care system by
          establishing standards that will facilitate the electronic transmission of data between providers
          and payers. (See Appendix A for a glossary of HIPAA-related terms and acronyms.) The
          goal is to create a seamless transfer of data with limited manual intervention.

Administrative Simplification

          Under Title II, Subtitle F (Administrative Simplification), the Secretary of Health and Human
          Services has the authority to: (1) mandate the use of standards for the electronic exchange of
          health care data, (2) specify what medical and administrative code sets should be used, (3)
          require the use of national identification systems, and (4) specify the types of measures required
          to protect the security and privacy of personally-identified health care information.

Electronic Transactions and Code Sets

          Electronic data interchange (EDI) is the electronic transfer of information in a standard format
          between trading partners. Compared to paper transactions, EDI substantially reduces handling
          and processing time by reducing the administrative burden, lowering operating costs, and
          improving overall data quality.2

          Transactions are the exchange of information between two parties to carry out financial or
          administrative activities related to health care. The standards for electronic transmission of each
          of the transactions are codified in the Code of Federal Regulations



          2
           65 FR 50312 (August 17, 2000)


HIPAA Readiness: Medicare Part B Providers            1                                 OEI-09-02-00422
          (45 CFR Parts 160 and 162). The rule provides standards for eight types of electronic
          transactions:

               1.   Health care claims or equivalent encounter information
               2.   Health care payment and remittance advice
               3.   Coordination of benefits
               4.   Health care claim status
               5.   Enrollment and disenrollment in a health plan
               6.   Eligibility for a health plan
               7.   Health plan premium payments
               8.   Referral certification and authorization

          The rule also contains requirements concerning the use of standardized code sets, such as
          medical diagnostic codes and medical procedure codes to encode data elements in the
          transactions. The following code sets have been adopted.3

               <    International Classification of Diseases, 9th Edition, Clinical Modification
                    (ICD-9-CM), Volumes 1 and 2
               <    International Classification of Diseases, 9th Edition, Clinical Modification, Volume 3
                    Procedures
               <    National Drug Codes (NDC) for retail pharmacy transactions
               <    Code on Dental Procedures and Nomenclature
               <    Combination of Health Care Financing Administration Common Procedure Coding
                    System (HCPCS) and Current Procedural Terminology, Fourth Edition (CPT- 4) for
                    physician services and other health care services
               <    Health Care Financing Administration Common Procedure Coding System (HCPCS)
                    for all other substances, equipment, supplies, or other items used in health care services

          Covered entities, defined as clearinghouses, health plans, and providers that use the electronic
          exchange of health information as part of their business, will be required to adopt these
          standards. The compliance date for this rule (45 CFR Parts 160 and 162) was originally
          October 16, 2002. The Administrative Simplification Compliance Act, signed into law on
          December 27, 2001, extends the compliance date by 1 year to October 16, 2003. The
          extension applies only to those covered entities that filed an extension with the Centers for
          Medicare & Medicaid Services (CMS) by October 16, 2002. For these entities, October 16,
          2003, is the compliance date. Since the implementation date is several months away, CMS has
          not yet developed standards to measure compliance.



          3
           45 CFR § 160.1002


HIPAA Readiness: Medicare Part B Providers              2                                OEI-09-02-00422
METHODOLOGY

          This is one in a series of HIPAA readiness surveys. We used a mail survey as the primary tool
          to conduct this evaluation. We mailed surveys during the week of December 2, 2002. We
          conducted two follow-up mail requests during the weeks of January 13, 2003, and January 27,
          2003. We tracked those providers for which we could not find a current address or phone
          number through state licensing boards, the Unique Physician Identification Number registry,
          Medicare carriers, hospitals, and billing services. We continued to mail surveys and obtain
          survey responses through fax and telephone interviews until April 4, 2003.

          We selected a stratified random sample of 150 Medicare Part B providers who submitted
          claims to Medicare carriers between July 1, 2001, and June 30, 2002. Stratification allowed us
          to test for differences in compliance strategies, contingencies, and barriers among providers,
          based on the number of claims they submitted to Medicare. We divided the providers into
          three strata:


                                                                           Number
                              Number of       Size of         Sample                      Percent of
             Stratum                                                          of
                               Claims        Population        Size                       responses
                                                                          responses

                                1 to 500
                 1                           1,607,207           50           40             80.0%
                                 claims

                             501 to 5,000
                 2                             324,847           50           45             90.0%
                                claims

                              5,001 claims
                 3                              13,325           50           43             86.0%
                                or more

                        TOTAL                1,945,379          150           128            85.3%

          We randomly ordered the population of providers within each stratum. We then selected the
          first 50 providers in each stratum that were covered by HIPAA, were still in business, and were
          not under investigation by the Office of Inspector General’s Office of Investigations.

          Our unweighted response rate was 85.3 percent. We had an 81.9 percent weighted response.
          Of the 128 respondents, 107 were physicians, 12 were durable medical equipment suppliers,
          and the rest were independently-practicing therapists, chiropractors, clinical social workers,
          nurse anesthetists, clinical laboratory, or portable x-ray suppliers. Practice administrators,
          business owners, billing services managers, financial officers, compliance officers, and clinic
          managers, who identified themselves as the person


HIPAA Readiness: Medicare Part B Providers           3                               OEI-09-02-00422
          responsible for coordinating the HIPAA Simplification Regulations, completed the surveys.

          For weighted estimates of key survey questions along with their corresponding confidence
          intervals, see Appendix B. We also tested for differences among the three strata for six of the
          questions (see Appendix B). We performed a nonrespondent analysis by strata and type of
          provider. In addition, we tested for differences between early and late responders. Our
          nonrespondent analysis did not detect a bias with respect to those factors (see Appendix C).
          The estimates given in this report are based on the portion of the sample who responded to our
          survey.

          We surveyed the providers about their level of readiness in four broad areas:

               1.   Assessment and awareness activities
               2.   Barriers that have impeded or are current obstacles to achieving compliance
               3.   Compliance strategies, such as sequencing and testing plans
               4.   Contingency planning

          We did not independently verify the accuracy of the responses.

          The inspection was conducted in accordance with the Quality Standards for Inspections
          issued by the President’s Council on Integrity and Efficiency.




HIPAA Readiness: Medicare Part B Providers            4                               OEI-09-02-00422
                                                FINDINGS
          We conducted a mail survey of a stratified random sample of Medicare Part B providers. Our

          response rate was 85.3 percent. Overall, according to respondents, Medicare Part B

          providers are making progress toward meeting the compliance deadline of 

          October 16, 2003, for implementing the HIPAA electronic transaction standards and code

          sets. Ninety-four percent expect to be in compliance by the deadline.


Ninety-four percent of Medicare Part B providers expect to be
in compliance with HIPAA standards by October 2003

          Almost all Medicare Part B providers submitted a compliance extension form. As a result, they
          have until October 16, 2003, to implement the electronic transaction standards and code sets.
          Ninety-four percent 4 (representing 96 percent of the Part B claims) of Medicare Part B
          providers indicated a moderate to high level of satisfaction that they expected to meet the
          HIPAA compliance deadline. At the time of our survey, 88 percent of the providers expressed
          a moderate to high level of satisfaction that they were ready to implement the HIPAA electronic
          standards.

Providers have developed internal and external testing strategies

          Approximately 90 percent of the Part B providers said that they either have or intend to
          develop a testing strategy that includes internal and external data interfaces. Overall,
          46 percent have begun some level of testing. Slightly more than half of the providers said that
          they had received notices from carriers regarding coordination of transaction testing.

Providers are developing implementation strategies to achieve compliance

          Part B providers indicated that they are developing plans to meet the compliance date. Ninety-
          six percent of the providers plan to, are in the process of, or have completed an implementation
          schedule. Approximately 95 percent of the providers said they plan to or are currently
          working with systems vendors to implement the standards. More than 80 percent of the
          providers are using a clearinghouse. Of those, more than 90 percent will continue to do so.
          Since the majority of providers indicated they were using clearinghouses and working with
          vendors to integrate compliant systems, most of the implementation strategies include a
          combination of the following:
          4
           This 94 percent is based on survey respondents. As a weighted percent of the entire sample of
150 providers, 18.1 percent did not respond to the survey, 77.2 percent indicated that they had moderate to high
expectations that they would be compliant, and the remaining 4.7 percent indicated that they had low expectations
that they would be compliant. See Appendix C for our nonrespondent analysis.


HIPAA Readiness: Medicare Part B Providers                     5                                       OEI-09-02-00422
               1. Using internal staff to plan, develop, and implement the standards
               2.	 Hiring a technical systems consultant or vendor to take full responsibility for planning,
                   developing, and implementing the new standards
               3.	 Purchasing components of a new system or additions to the current system from a
                   vendor to meet the standards

          According to respondents, providers are using expert resources outside their organization to
          help implement the HIPAA standards and code sets. More than 85 percent stated that they
          have used or plan to use their professional associations for information to assist them in
          developing implementation strategies.

          Sixty-eight percent of the respondents indicated that they plan to purchase or already have
          purchased new system components as part of their implementation strategy. However, only 27
          percent said that they or their contract vendors had conducted any cost-benefit analysis.

          Although 94 percent of the providers expressed a moderate or higher level of satisfaction that
          they will be compliant, more than 50 percent indicated that they were developing contingency
          plans in the event their system is not compliant by October 2003.

Implementation strategies vary according to provider’s claims volume

          As part of our analysis, we reviewed the responses from six questions regarding implementation
          strategies among the survey strata. We found a significant variation in responses to the
          question, “Does your organization have a sequencing (prioritization) strategy for implementing
          the HIPAA electronic transactions?” We found that providers that file between 1 and 5,000
          claims (strata 1 and 2) are less likely to use a sequencing strategy. This may be attributed to
          the systems these providers are using currently to transact their claims. For example, billing
          services may be purchasing “ready to use” software with all of the new transactions
          implemented simultaneously. The point estimates and the chi-square test information regarding
          the relationships are included in Appendix B.




HIPAA Readiness: Medicare Part B Providers              6                                 OEI-09-02-00422
External barriers may affect compliance

          When asked to list as many as three barriers to compliance, 47 percent of the respondents
          listed one or more. The most common were:

               <    Vendors may not meet the implementation date. 

               <    Third party payers, trading partners, and carriers may not be compliant.

               <    Implementation is costly.


          The majority of the respondents who cited barriers expressed concerns that external entities,
          over which they have no control, may affect their ability to transmit and receive HIPAA
          compliant transactions.




HIPAA Readiness: Medicare Part B Providers             7                                OEI-09-02-00422
                                             CONCLUSION

          According to respondents, Medicare Part B providers are making progress toward meeting the
          compliance target of October 16, 2003, for implementing the HIPAA electronic transaction
          standards and code sets. Ninety percent or more of the providers have developed
          implementation schedules and internal and external testing strategies, and are working with
          system vendors to implement the electronic standards. Furthermore, more than 85 percent are
          relying on their professional associations to assist them in developing implementation strategies.
          When asked about barriers to achieving compliance, respondents expressed concern that
          vendors and trading partners may affect their ability to meet the compliance date.




HIPAA Readiness: Medicare Part B Providers            8                                OEI-09-02-00422
                                                                                  APPENDIX A


        Glossary of Selected HIPAA-related Terms and Acronyms


Administrative Simplification: the use of mandated standards for the electronic exchange of health
care data and specific measures to protect the security and privacy of personally identifiable health care
information.

Clearinghouse: an entity that processes information received from one entity in a nonstandard format
into a standard transaction, or receives a standard transaction and converts it to a nonstandard format for
a receiving entity.

Code Set: the tables of terms, medical concepts, diagnostic codes, or procedure codes and descriptions
used to encode information in a transaction.

Contingency Plan: a plan developed by covered entities to provide an alternative for submitting or
receiving HIPAA electronic transactions after October 2003, in the event that the covered entity’s system
conversion fails or is incomplete.

Covered Entity: any health plan, health care clearinghouse, or a health care provider who transmits any
health information in electronic form in connection with a transaction covered by the HIPAA standards.

Electronic Data Interchange (EDI): any electronic exchange of formatted data.

EDI Translator: a software tool for accepting an EDI transmission and converting the data into another
format, or for converting a non-EDI file into an EDI format for transmission.

Medicare Part B Provider: includes physicians, durable medical equipment providers, diagnostic
laboratories, radiology services, chiropractic services, nurse practitioners, and physician assistants.

Sequencing: a process plan developed by a covered entity to implement each of the transaction
standards in a logical sequence.

Standard Transactions: the exchange of information between two parties that complies with the
requirements established under HIPAA.

Trading Partner: an external entity, such as a customer, with whom the covered entity does business.
A trading partner can be so designated for some purposes and considered a business associate for other
purposes.

Translator: see EDI translator.

Vendor: software and/or hardware entities that provide HIPAA compliant services, consulting, and/or
products to covered entities. Vendors may be business associates or trading partners.

HIPAA Readiness: Medicare Part B Providers              9                                  OEI-09-02-00422
                                                                                      APPENDIX B



                  Confidence Intervals for Key Survey Questions

The following tables show the point estimates and 95 percent confidence intervals for selected statistics.
These statistics are based on an 85 percent response rate to our survey.

Compliance/Testing
                                                                              Point        95 Percent
              Survey Question                          Response
                                                                             Estimate   Confidence Interval

 Has your organization submitted a           All respondents who
 compliance extension form under the         answered “yes”
                                                                              95.5%       89.9% - 100.0%
 Administrative Simplification
 Compliance Act?

 How ready do you believe your               All respondents who
 organization is, at this point, to          answered “5,” “4,” or “3” on
                                                                              87.5%        79.7% - 95.3%
 implement the HIPAA electronic              a scale of 1 to 5 (for levels
 transaction standards?                      of satisfaction)

 How confident are you that your             All respondents who
 organization will meet the October 2003,    answered “5,” “4,” or “3” on
                                                                              94.2%        88.6% - 99.9%
 target for implementing the electronic      a scale of 1 to 5 (for levels
 transactions?                               of satisfaction)

 Has the organization begun any testing      All respondents who
 of its applications of the HIPAA            answered “yes”                   45.8%        33.1% - 58.4%
 electronic transactions?

 Does your organization have an overall      All respondents who
 strategy for testing its HIPAA              answered “completed,”            96.1%       91.9% - 100.0%
 compliant data systems?                     “underway,” or “plan to”

 Does the testing strategy include           All respondents who
 internal and external data interfaces?      answered “completed,”            89.9%        83.0 - 96.9%
                                             “underway,” or “plan to”

 Has your organization received any          All respondents who
 notices from the fiscal intermediaries or   answered “yes”
 carriers regarding coordination of                                           56.3%        43.7% - 69.0%
 testing of HIPAA electronic
 transactions?




HIPAA Readiness: Medicare Part B Providers                 10                            OEI-09-02-00422
Strategies/Contingency Planning
                                                                              Point        95 Percent
              Survey Question                          Response
                                                                             Estimate   Confidence Interval

 Is your organization currently using        All respondents who
 clearinghouse(s) or other organizations     answered “yes”
                                                                               81.7%        72.0% - 91.5%
 to process any part of its HIPAA
 electronic transactions?

 Is your organization currently working      All respondents who
 with a systems vendor(s) to implement       answered “completed,”             94.9%       89.2% - 100.0%
 the HIPAA electronic standards?             “underway,” or “plan to”

 Has your organization used its              All respondents who
 professional association(s) for             answered "completed,”
                                                                               85.8%        77.0% - 94.6%
 information to assist you in developing     “underway,” or “plan to”
 a transaction compliance strategy?

 Has your organization created a             All respondents who
 schedule to implement the changes in its    answered “completed,”
 data system to comply with the HIPAA        “underway,” or “plan to”          96.6%       92.5% - 100.0%
 electronic transaction standards
 deadline?

 Has your organization purchased new         All respondents who
 software, hardware, or system               answered “completed,”
                                                                               68.1%        56.1% - 80.1%
 component(s) to meet transaction            “underway,” or “plan to”
 compliance requirements

 Have you, your contracted vendor(s), or     All respondents who
 any consultants conducted a                 answered “yes”
 cost/benefit analysis for implementing                                        27.4%        14.9% - 39.8%
 the HIPAA electronic transaction
 standards?

 Has your organization developed a           All respondents who
 contingency plan in the event its system    answered “completed,”             56.8%        43.9% - 69.8%
 is not compliant by October 2003?           “underway,” or “plan to”




Barriers
                                                                              Point        95 Percent
              Survey Question                          Response
                                                                             Estimate   Confidence Interval

 How satisfied are you with the resources    All respondents who
 your organization is committing to meet     answered “5,” “4,” or “3” on
                                                                              92.4%        85.5% - 99.3%
 the HIPAA electronic transaction            a scale of 1 to 5 (for levels
 standards?                                  of satisfaction)




HIPAA Readiness: Medicare Part B Providers               11                              OEI-09-02-00422
          We compared responses among the three strata of providers: stratum1 (less than
          501 claims), stratum 2 (501 to 5,000 claims), and stratum 3 (more than 5,000 claims) for six
          questions, which we thought might show significant differences among strata. Only one
          question is statistically significant at the 95 percent confidence level. Using the Bonferroni
          method for multiple comparisons, a comparison was statistically significant if the p-value was
          less than 0.05 divided by 6 or approximately 0.008.

Compliance/Testing
                                                                                                        Chi-Square Test
                                                                                 Point
            Survey Question                        Measurement                                     Degrees of
                                                                                Estimate                              P-value
                                                                                                    Freedom

 How confident are you that your             All respondents who
 organization will meet the October          answered “5,” “4,” or           95.0 stratum 1
 2003, target for implementing the           “3” on a scale of 1             91.1 stratum 2              2                0.390
 electronic transactions?                    to 5 (for levels of             97.7 stratum 3
                                             satisfaction)

 Has your organization begun any             All respondents who              50.0 stratum 1
 testing of its applications of HIPAA        answered “yes”                   28.9 stratum 2             2                0.023
 electronic transactions?                                                     55.8 stratum 3


Strategies/Contingency planning
                                                                                                        Chi-Square Test
                                                                                 Point
            Survey Question                        Measurement                                     Degrees of
                                                                                Estimate                              P-value
                                                                                                    Freedom

 Is your organization currently using        All respondents who              82.5 stratum 1
 clearinghouse(s) or other                   answered “yes”                   79.1 stratum 2
                                                                                                         2                0.524
 organizations to process any part of                                         72.1 stratum 3
 its HIPAA electronic transactions?

 Has your organization identified the        All respondents who
                                                                              100.0 stratum 1
 steps necessary to implement the            answered “completed,”
                                                                               95.6 stratum 2
 HIPAA electronic standards?                 “underway,” or “plan                                        2                0.221
                                                                              97.6 stratum 3
                                             to”

 Does your organization have a               All respondents who              45.9 stratum1
 sequencing (prioritization) strategy        answered “yes”                   54.5 stratum 2
                                                                                                         2                0.007*
 for implementing the HIPAA                                                   78.0 stratum 3
 electronic transactions?

 Has your organization developed a           All respondents who
                                                                              58.3 stratum 1
 contingency plan in the event the           answered “completed,”
                                                                              51.1 stratum 2             2                0.264
 system is not compliant by October          “underway,” or “plan
                                                                              68.3 stratum 3
 2003?                                       to”

* Statistically significant at the 95 percent confidence level. Additionally, 47.8 percent of providers who submitted
up to and including 5,000 claims (strata 1 and 2) have a sequencing strategy, compared with 78.0 percent of providers
who submitted more than 5,000 claims (stratum 3). This difference is significant at the 95 percent confidence level (p­
value of 0.002).


HIPAA Readiness: Medicare Part B Providers                     12                                       OEI-09-02-00422
                                                                             APPENDIX C


                                             Nonrespondent Analysis


          To evaluate the effect of nonrespondents on the results of the survey, we performed three
          chi-square tests. The differences in response rate among the strata were not statistically
         significant at the 95 percent confidence level.



                                                                                   Chi-Square Test
             Stratum              Number of Claims           Response Rate     Degrees of
                                                                                                P-value
                                                                                freedom
                 1                   1 to 500 claims               80.0%

                 2                501 to 5,000 claims              90.0%             2            0.376

                 3               5,001 claims or more              86.0%


          The difference in response rate between durable medical equipment (DME) suppliers and all
          other providers was significant at the 95 percent confidence level. We evaluated the possible
          effect of this difference on our estimate that 94.2 percent of Medicare Part B providers have
          moderate to high expectations that they will be compliant with HIPAA standards by October
          2003. Assuming that the non-respondents (none of whom were DME providers) had
          responded to the question, “How confident are you that your organization will meet the
          October 2003 target for implementing the electronic transactions?” using the weighted
          proportion for respondents who were not DME providers, then the estimate change is
          negligible, from 94.2 percent to 94.1 percent.



                                                                                   Chi-Square Test
                Type of Provider                 Response Rate (Weighted)       Degree of
                                                                                                 P-value
                                                                                 Freedom

                   DME provider                          100.0%
                                                                                     1            0.027
                All other providers                       80.2 %



HIPAA Readiness: Medicare Part B Providers              13                           OEI-09-02-00422
          Analysis by Time of Response

          As an additional guard against biased results, surveys may be reviewed for differences which
          exist between early and late respondents. The rationale is that late respondents and
          nonrespondents may share certain tendencies. For example, when compared to early
          respondents, late respondents and nonrespondents could have similar characteristics with
          respect to HIPAA readiness.

          We compared the proportion of Part B providers who had moderate to high expectations that
          they will be in compliance between providers who responded on or before March 1, 2003,
          (68.0 percent of the respondents) and providers who responded after that date. The difference
          was not significant at the 95 percent confidence level.


                                                    Proportion who                Chi-Square Test
                Date of             Number of
                                                    expected to be
               Response             respondents                                Degree of
                                                  compliant (weighted)                          P-value
                                                                               Freedom
            On or before
                                             87           95.1%
            March 1, 2003
                                                                                    1             0.682
               After
                                             41           92.3%
            March 1, 2003




HIPAA Readiness: Medicare Part B Providers          14                               OEI-09-02-00422
                            ACKNOWLEDGMENTS

          This report was prepared under the direction of Paul A. Gottlober, Regional Inspector General
          for Evaluation and Inspections, and Deborah W. Harvey, Assistant Regional Inspector General
          for Evaluation and Inspections, in San Francisco. Other principal Office of Evaluation and
          Inspections staff who contributed include:

          Timothy Brady, Project Leader                 Linda Frisch, Program Specialist

          Silvia Chin, Program Analyst

          Robert Gibbons, Program Analyst

          Cheryl Dotts, Program Assistant





HIPAA Readiness: Medicare Part B Providers         15                              OEI-09-02-00422
